Csse 20-741. Document 147, 05/05/2021: 3094781, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
6th day of May, two thousand twenty-one.

Rimma Kunik.
Plaintiff - Appellant,
ORDER
v.

Docket No: 20-741

New York City Department of Education, Principal Kaye
Houlihan, Assistant Principal Dorish Munoz Fuentes,
Defendants - Appellees.

Appellant, Rimma Kunik, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk
SECOND \J

Ip-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Pagel of 10

20-741-cv
Kunik v. N.Y.C. Dep't ofEduc.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007 IS PERMITTED AND IS GOVERNED BY
Federal Rule of Appellate Procedure 32.1 and this court's Local Rule 32.1.1.
When citing a summary order in a document filed with this court, a party must
cite either the Federal Appendix or an electronic database (with the notation
"summary order"). A party citing a summary order must serve a copy of it on
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 15th day of January, two thousand twenty-one.
PRESENT:
GUIDO CALABRESI,
REENA RAGGI,
DENNY CHIN,
Circuit Judges.
x
RIMMA KUNIK,
Plaintiff-Appellant,
v.

20-741-cv

NEW YORK CITY DEPARTMENT OF EDUCATION,
PRINCIPAL KAYE HOULIHAN,
ASSISTANT PRINCIPAL DORISH MUNOZ FUENTES,
Defendants-Appellees. *
x

* The Clerk of Court is respectfully directed to amend the official caption as set forth above.

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page2 of 10

FOR PLAINTIFF-APPELLANT:

Rimma Kunik, pro se, Pearl River, New York.

FOR DEFENDANTS-APPELLEES:

Elizabeth I. Freeman, Jeremy W. Shweder, for
James E. Johnson, Corporation Counsel of the
City of New York, New York, New York.

Appeal from the United States District Court for the Southern District of
New York (Broderick, /.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment of the district court entered on
January 31, 2020, is AFFIRMED.
Plaintiff-appellant Rimma Kunik, a retired high school teacher proceeding
pro se, appeals from the district court's dismissal of her claims of employment
discrimination and retaliation brought against defendants-appellees New York City
Department of Education ("DOE"), Kaye Houlihan, and Dorish Munoz Fuentes
(collectively, "defendants") pursuant to 42 U.S.C. § 1983 and state law. Kunik
specifically challenged the district court’s (1) September 29, 2017 dismissal of certain
claims for failure to state a claim or as time-barred, and (2) January 31, 2020 award of
summary judgment to defendants on her remaining claims. We assume the parties
familiarity with the underlying facts, the procedural history of the case, and the issues
on appeal.

-2-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page3 of 10

I.

Certain Claims Are Waived
We "liberally construe pleadings and briefs submitted by pro se litigants,

reading such submissions to raise the strongest arguments they suggest." McLeod v.
Jewish Guild for the Blind, 864 F.3d 154,156 (2d Cir. 2017) (internal quotation marks
omitted). Despite affording pro se litigants "some latitude in meeting the rules
governing litigation," we "normally will not[ ] decide issues that a party fails to raise in
his or her appellate brief." Moates v. Barkley, 147 F.3d 207, 209 (2d Cir. 1998); see also
Terry v. Inc. Village of Patchogue, 826 F.3d 631, 632-33 (2d Cir. 2016) ("Although we
accord filings from pro se litigants a high degree of solicitude, even a litigant
representing [herself] is obliged to set out identifiable arguments in [her] principal
brief." (internal quotation marks omitted)).
Kunik has waived any challenge to the district court’s dismissal of her
retaliation, procedural due process, New York State Human Rights Law ("NYSHRL”),
and New York City Human Rights Law ("NYCHRL") claims by not raising any
arguments concerning these claims in her principal brief to this Court. Her inquiry
about the NYSHRL and NYCHRL claims in her reply brief, even if construed as an
argument challenging dismissal, is insufficient to preserve those claims for appeal
because we generally do not consider arguments raised for the first time in a reply brief,
and nothing in the record before us warrants a departure from that rule. See JP Morgan
Chase Bank v. Altos Homos de Mexico, S.A. de C.V., 412 F.3d 418, 428 (2d Cir. 2005). Kunik

-3-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page4 of 10

has also waived her claims against DOE by not challenging the district court's ruling on
municipal liability.
II.

Certain Claims Are Time-Barred
The district court properly dismissed Kunik's claims based on

discriminatory actions taken prior to December 18, 2012 as time-barred. In New York,
"a plaintiff asserting a claim of discrimination under § 1983 must file suit within three
years of the adverse employment action." Vega v. Hempstead Union Free Sch. Dist., 801
F.3d 72, 79 (2d Cir. 2015). Here, Kunik filed her complaint on December 18, 2015.
Accordingly, to the extent her § 1983 claims rely on alleged adverse employment actions
that occurred prior to December 18, 2012, those claims are time-barred.
The district court also correctly determined that Kunik did not allege a
"continuing violation" that would allow time-barred claims to be considered timely. See
Patterson v. Cnty. of Oneida, N.Y., 375 F.3d 206, 220 (2d Cir. 2004) (noting that this
exception does not apply to "discrete acts of discrimination ... that occur outside the
statutory time period" (emphasis in original)). The discriminatory acts alleged to have
occurred prior to this date were discrete acts, such as performance reviews or work
assignment matters.
III.

Certain Claims Are Not Facially Plausible
We review de novo the dismissal of a complaint pursuant to Rule 12(b)(6).

See Forest Park Pictures v. Universal Television Network, Inc., 683 F.3d 424, 429 (2d Cir.

-4-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page5 of 10

2012). The complaint must plead "enough facts to state a claim to relief that is plausible
on its face." Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007). "A claim has facial
plausibility when the plaintiff pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the misconduct alleged." Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009).
To establish a hostile work environment claim under § 1983, a plaintiff
must show that the workplace is "permeated with discriminatory intimidation, ridicule,
and insult that is sufficiently severe or pervasive to alter the conditions of [her]
employment and create[s] an abusive working environment." Littlejohn v. City of New
York, 795 F.3d 297, 320-21 (2d Cir. 2015) (internal quotation marks omitted). The
plaintiff must establish not only that she subjectively perceived her work environment
to be abusive, but also that "a reasonable person would find it hostile or abusive." Id. at
321 (internal quotation marks omitted). To be actionable under the Equal Protection
Clause, moreover, a plaintiff must show that the abusive conduct occurred because of her
membership in a protected class. Id. at 320. "Where an alleged constructive discharge
stems from an alleged hostile work environment, a plaintiff must show working
conditions so intolerable that a reasonable person would have felt compelled to resign."
Fincher v. Depository Tr. & Clearing Corp., 604 F.3d 712, 725 (2d Cir. 2010) (internal
quotation marks omitted). The standard for such a constructive discharge is "higher
than the standard for establishing a hostile work environment." Id.

-5-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page6 of 10

The district court correctly determined that Kunik's amended complaint
failed to state a claim for hostile work environment or constructive discharge because,
drawing all reasonable inferences in her favor, it did not plausibly allege that her work
environment was "permeated" with discrimination based on her age and religion,
Littlejohn, 795 F.3d at 320, or that a reasonable person would have felt "compelled to
resign" based on such discriminatory hostility, Fincher, 604 F.3d at 725. Kunik did not
allege any overt discrimination based on her age or religion, much less any facts
showing that "discriminatory intimidation, ridicule, and insult" was "sufficiently severe
or pervasive" to alter the conditions of her employment or created an abusive working
environment. Littlejohn, 795 F.3d at 320-21. While she did allege "religious
discrimination and/or age discrimination" based on defendants’ "demeanor," App'x at
320, her allegations of implicit discrimination were speculative and conclusory.
IV.

Certain Claims Do Not Present An Issue Of Fact For Trial
This Court reviews a grant of summary judgment de novo, ”resolv[ing] all

ambiguities and drawing] all inferences against the moving party." Garcia v. Hartford
Police Dep't, 706 F.3d 120,127 (2d Cir. 2013) (per curiam). "Summary judgment is
proper only when, construing the evidence in the light most favorable to the non­
movant, 'there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.'" Doninger v. Niehoff, 642 F.3d 334, 344 (2d Cir. 2011)
(quoting Fed. R. Civ. P. 56(a)). A party cannot defeat a motion for summary judgment

-6-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page7 of 10

with "conclusory allegations or unsubstantiated speculation." Fujitsu Ltd. v. Fed. Express
Corp., 247 F.3d 423, 428 (2d Cir. 2001).
Employment discrimination claims brought under § 1983 and the Equal
Protection Clause are analyzed under the three-step McDonnell Douglas framework. See
Back v. Hastings on Hudson Union Free Sch. Dist., 365 F.3d 107,123 (2d Cir. 2004)
(citing McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973)). First, the plaintiff must
establish a prima facie case of discrimination by showing that (1) she is a member of a
protected class; (2) she is qualified for her position; (3) she suffered an adverse
employment action; and (4) the circumstances give rise to an inference of
discrimination. See Vega, 801 F.3d at 83. Once an employee has demonstrated a prima
facie case, "[t]he burden then shifts to the employer to 'articulate some legitimate,
nondiscriminatory reason' for the disparate treatment." Id. (quoting McDonnell Douglas
Corp., 411 U.S. at 802). "If the employer articulates such a reason for its actions, the
burden shifts back to the plaintiff to prove that the employer's reason was in fact pretext
for discrimination." Id. (internal quotation marks omitted). "A plaintiff sustains an
adverse employment action if he or she endures a materially adverse change in the
terms and conditions of employment." Id. at 85 (internal quotation marks omitted). The
change must be "more disruptive than ... an alteration of job responsibilities," and may
consist of "a termination of employment, a demotion evidenced by a decrease in wage
or salary, a less distinguished title, a material loss of benefits, [or] significantly

-7-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page8 of 10

diminished material responsibilities." Shultz v. Congregation Shearith Israel of City of New
York, 867 F.3d 298, 304 (2d Cir. 2017) (internal citations and quotation marks omitted).
On appeal, Kunik contends only that she was subject to an adverse
employment action because her unsatisfactory performance review prevented her from
being able to teach summer school and obtain other optional "per-session" work for
additional income. She does not challenge the district court's other conclusions as to
alleged adverse employment actions.
The district court correctly determined that her unsatisfactory
performance review did not result in an adverse employment action as a matter of law
for several reasons. First, the record is clear that Kunik had not applied for any position
teaching summer school or other per-session work in 2013, the year she alleged she was
prevented from doing so by her poor performance review; in fact, she had missed the
deadline to apply before she received the rating. Moreover, DOE payroll records
showed that she had not taught summer school since 2003. An "unsatisfactory"
performance review is not an adverse employment action where it does not affect a
person's "compensation, benefits, or job title." Fairbrother v. Morrison, 412 F.3d 39, 56-57
(2d Cir. 2005), abrogated on other grounds by Burlington N. & Santa Fe Ry. Co. v. White, 548
U.S. 53 (2006).
Second, even if Kunik had been denied the opportunity to earn income
through teaching summer school or other per-session work, a reasonable jury could not

-8-

Case 20-741, Document 110-1, 01/15/2021, 3014368, Page9 of 10

conclude that the denial of this additional work constituted "a material loss of benefits."
Shultz, 867 F.3d at 304. Kunik testified that this work was "outside [her] permanent
employment" and something she had to apply for. Kunik Deposition Tr. at 8-10, Kunik
v. New York City Dep't ofEduc., No. 15-cv-9512 (S.D.N.Y. Jan. 18, 2019), HCF No. 63-2.
Moreover, she was not earning income from per-session work at the time she received
the "Unsatisfactory" rating, and she did not provide evidence that she suffered any
other form of demotion or "material loss of benefits" as a result of that rating. Shultz,
867 F.3d at 304 (internal quotation marks omitted). Flence, the district court correctly
granted summary judgment on this basis. See Collins v. N.Y.C. Transit Auth., 305 F.3d
113,118 (2d Cir. 2002).
In addition, Kunik also failed to present sufficient evidence to permit a
reasonable jury to find that any adverse action was motivated by discrimination or
retaliation. She testified that defendants never commented on her age or religion, and
she presented no evidence to support her speculative allegations that defendants
harbored implicit bias towards her based on her age or religion. See Bickerstaff v. Vassar
Coll, 196 F.3d 435, 456 (2d Cir. 1999) ("[feelings and perceptions] of being discriminated
against [are] not evidence of discrimination"). Moreover, although the record does
contain evidence that Kunik was treated differently from other teachers in her
department — for example, she was given an "Unsatisfactory" performance review -- she

-9-

Case 20-741, Document 110-1, 01/15/2021, 3014368, PagelO of 10

did not present evidence from which a reasonable jury could find the disparate
treatment was motivated at least in part by her age or religion.
* * *

We have reviewed Kunik’s remaining arguments on appeal and conclude
they are without merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

-10-

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 1 of 19

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED ,

DOc£&
'Ai-V." •'

DATE FILED:

RIMMA KUNIK,

.
1/31/2020

Plaintiff,
15-CV-9512 (VSB)
- against OPINION & ORDER
NEW YORK CITY DEPARTMENT OF
EDUCATION, PRINCIPAL KAYE
HOULIHAN, AND ASSISTANT PRINCIPAL
DORISH MUNOZ FUENTES,
Defendants.
X
Appearances:
Steven I. Lewbel
Melito & Adolfsen P.C.
New York, New York
Counselfor Plaintiff
John P. Guyette
for Zachary W. Carter
Corporation Counsel, City of New York
New York, New York
Counsel for Defendants
VERNON S. BRODERICK. United States District Judge:
Before me is the motion of Kaye Houlihan and Dorish Munoz Fuentes (the
“Defendants”) for summary judgment dismissing Plaintiff Rimma Kunik’s amended complaint,
(Doc. 30), which asserts claims of retaliation, religious discrimination, age discrimination,
hostile work environment, constructive discharge, procedural due process, and municipal
liability pursuant to Title 42 United States Code, Section 1983. Plaintiff also brings retaliation
and religious discrimination claims under the New York State Human Rights Law, N.Y. Exec.

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 2 of 19

Law §§ 290 et seq. (“NYSHRL”) and the New York City Human Rights Law, N.Y. City Admin.
Code §§ 8-101 etseq. (“NYCHRL”).
In a Memorandum & Order filed on September 27, 2017,1 dismissed Plaintiffs § 1983
claims for retaliation, hostile work environment, constructive discharge, procedural due process,
and municipal liability, and dismissed as time barred Plaintiffs § 1983 claims to the extent they
accrued prior to December 18, 2012. I also dismissed Plaintiffs NYSHRL and NYCHRL claims
as time-barred. (Doc 34, at 9-11). With regard to the incidents that occurred prior to December
18, 2019,1 held that the incidents were primarily a series of discrete events which did not
constitute a continuing violation, and were, therefore, barred from consideration as untimely.
(Id.) Plaintiffs claims for religious and age discrimination pursuant to § 1983 after December
18, 2012, were not dismissed, and are the only claims that remain in the case.
Because I find that Plaintiff has failed to establish a prima facie case of age or religious
discrimination under § 1983, Defendants’ motion for summary judgment is GRANTED.
I.

Background
A. Parties

As of the date of the filing of the Amended Complaint, Kunik was a 69-year-old female,
native of Russia, and an observant member of the Jewish faith. (Defs.’ Fact Statement ^ 1.) i
Kunik was employed by the Department of Education at Fort Hamilton High School (“FHHS”)
from 1994 until her departure in 2014, and became a Department of Education tenured teacher in
1995. (Defs.’ Fact Statement 2; Pl.’s Fact Statement fflj 106-107.)2 She was licensed to teach
English as a Second Language (“ESL”) and English grades 7 through 12. (Defs.’ Fact Statement

1 “Defs.’ Fact Statement” refers to Defendants’ Local Rule 56.1 Statement of Material Facts with Plaintiffs
responses. (Doc. 69-1.)
2 “Pl.’s Fact Statement” refers to Plaintiffs Local Rule 56.1 Statement of Material Facts. (Doc. 69-2)

2

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 3 of 19

3; Pl.’s Fact Statement

110.)

From 2003 to 2013, Defendant Fuentes was the Assistant Principal of the Foreign
Languages and ESL Department of FHHS (the “ESL Department”). (Pl.’s Fact Statement ^
241.) From 2012 until Kunik’s departure, Defendant Houlihan was the Principal of FHHS.
(Pl.’s Fact Statement^ 188.)
B. Plaintiffs Allegations1"
After working at FHHS since 1994, Plaintiff experienced discriminatory behavior from
her supervisors in the 2012-2013 and 2013-2014 school years. In the spring semester of 2013,
Kunik was assigned a challenging schedule, “forcing her to literally resort to no more than 5
hours of sleep daily for the whole spring semester ... in order to comply with her contractual
obligations.” (Am. Compl.

28.) Thereafter, in a report dated April 9, 2013, Defendant Fuentes

described Kunik as “confrontational.” (Ernst Deck Ex. M at 6.)4 A week later, on April 16,
2013, Kunik raised the problems she was having with Defendant Fuentes to Defendant Houlihan.
(Am. Compl. ^ 26.) Defendant Houlihan ignored Kunik’s complaints. (Id.

26.) Kunik

received an “unsatisfactory” rating for the 2012-2013 school year, and a “developing” rating for
the 2013-2014 school year. (Defs.’ Fact Statement ^ 72, 88.) The unsatisfactory rating
prohibited Kunik from teaching summer school, and prevented her from working for per-session
pay. (Defs.’ Fact Statement ^ 137, 139.)
During the 2013-2014 school year, Kunik was not chosen for a professional development
seminar. (Defs.’ Fact Statement,

119.) During the 2013-2014 school year, Defendant

3 Because I dismissed Plaintiffs claims prior to December 18, 2012, as time-barred, I only consider Plaintiffs
allegations after that time. (See Doc. 34).
4 “Ernst Decl.” refers to the Declaration of Leo T. Ernst in Support of Defendants’ motion for summary judgment
and its supporting exhibits (Doc. 36).

3

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 4 of 19

Houlihan observed Kunik on six occasions. (Defs.’ Fact Statement 175.) In connection with
these observations, Kunik filed at least five APPR requests5 that claimed that the observation
reports were not accurate, but Defendant Houlihan refused to accept Kunik’s arguments, nor did
she adjust the ratings. (Am. Compl. f 50; Defs.’ Fact Statement If 72.)
In September 2014, Defendant Houlihan gave permission to Kunik to provide Houlihan
with “artifacts”—additional information about observations—that were originally due in April,
by October 1, 2014. (Defs.’ Fact Statement

133-136; Pl.’s Fact Statement

166-169.)

However, during the few days in which Kunik had to submit the artifacts, two of the days fell on
Rosh-ha-Shana, the Jewish New Year, and the day after Rosh-ha-Shana was the Sabbath. (Pl.’s
Fact Statement % 167.) Therefore, Kunik could not submit the artifacts on those days, and she
asked Defendant Houlihan for an extension based on Kunik’s religious observances. (Id. U 167168) On September 28, Houlihan reiterated that the artifacts were due on October 1. (Defs.’
Fact Statement

133-136; Pl.’s Fact Statement

166-169.)

Throughout the 2013-2014 school year, Kunik alleges that other teachers in the ESL
Department were given better schedules than she was given. (Defs.’ Fact Statement

105.)

Specifically, Kunik was assigned five advanced preparation classes, which required more work
than basic or intermediate preparation classes, while other younger and non-Jewish teachers in
the ESL Department received either fewer advanced preparation classes or basic and
intermediate preparation classes. (Am. Compl.

46.)

Kunik resigned from her post on December 9, 2014. (Defs.’ Fact Statement 4.)
Because she resigned in her twenty-first year of tenured employment, Kunik lost certain benefits

5 “APPR request” is not defined in the amended complaint; however, based upon the context I believe it refers to an
APPR Resolution Assistance Request, a form used by a teacher if she is “concerned about possible procedural
violations related to any part of [her] Annual Professional Performance Review.” See United Federation of
Teachers, http://www.uft.org/teaching/concerns-about-evaluation-system-or-your-rating (last visited Dec. 2, 2019).

4

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 5 of 19

that she would have received had she completed an additional year. (Am. Compl.

54.) She

also lost the opportunity to contribute additional funds to her annuity account. (Id. ^ 56.) During
her final years at FHHS, Kunik suffered from high blood pressure, a recurrence of her ulcer,
bowel problems, a thyroid malfunction, and emotional distress—injuries that she attributes to the
treatment she was subjected to by Defendants. (Pl.’s Fact Statement ff 171-175.)
II.

Procedural History

Plaintiff initiated this action by filing a complaint on December 18, 2015. (Doc. 5.)
After a number of issues arose with Plaintiffs service of the complaint, the parties appeared
before me on July 13, 2016, to discuss the matter. (See Docs. 7, 10, 12, 14, 19, 21.) By order
dated July 14, 2016,1 granted Plaintiff an extension of time to effectuate proper service on all
Defendants, and the parties were directed to meet and confer on or before September 12, 2016,
regarding purported deficiencies in the complaint. (Doc. 21.) I also directed the parties to
submit a proposed briefing schedule if Defendants intended to file a motion to dismiss. (Id.)
Pursuant to that order, the parties notified me that Plaintiff would file an amended complaint and
advised me of their agreed upon schedule for the filing of Defendants’ motion to dismiss. (See
Doc. 24.) On September 12, 2016, Plaintiff filed her Verified Amended Complaint (“Amended
Complaint”). (Doc. 23.) Defendants filed their motion to dismiss and memorandum of law on
November 10, 2016, (Docs. 30—31), Plaintiff filed her opposition papers on December 12, 2016,
(Doc. 32), and Defendants filed their reply on December 23, 2016, (Doc. 33).
On September 27, 2017,1 issued a Memorandum & Opinion on Defendants’ motion to
dismiss. (Doc. 34). I dismissed Plaintiffs retaliation, hostile work environment, constructive
discharge, procedural due process, and municipal liability claims pursuant to § 1983. I also
dismissed Plaintiffs claims pursuant to the NYSHRL and the NYCHRL as time-barred.

5

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 6 of 19

Furthermore, I dismissed Plaintiffs claims to the extent they accrued prior to December 18,
2012, as time-barred. (Doc. 34 at 9). I held that these incidents were primarily a series of
discrete events which did not constitute a continuing violation, and were, therefore, barred from
consideration by this court. (Id.) Plaintiffs claims for religious and age discrimination pursuant
to § 1983 after December 18, 2012, were not dismissed.
On October 23, 2017,1 entered a Case Management Plan. (Doc. 37). On June 4, 2018,1
referred the case to Magistrate Judge Henry B. Pitman for general pre-trial matters, including
scheduling, discovery, non-dispositive pre-trial motions, and settlement.6 On December 12,
2018, Defendants submitted a letter informing me of their intent to move for summary judgment,
and setting a briefing schedule, which I adopted on December 14, 2019. (Doc. 59). Defendants
filed their motion for summary judgment on January 18, 2019, (Doc. 62), along with a
memorandum of law, (Doc. 64), a Statement of Undisputed Material Facts pursuant to Local
Rule 56.1, (Doc. 67), and a Declaration of Leo T. Ernst in support with exhibits, (Doc. 63). On
February 1, 2019, Plaintiff sought an extension of time to file her opposition to Defendants’
motion, which I granted. (Doc. 66). In opposition to the motion, Plaintiff submitted a
memorandum of law with responses to Defendants’ Statement of Undisputed Facts, a
Supplemental Plaintiffs Counter Statement of Undisputed Facts, (Docs. 69, 69-1, 69-2), and a
Declaration of Steven I. Lewbel with exhibits (Doc. 68). Defendants filed a memorandum of law
in reply on April 2, 2019. (Doc. 71)
III.

Legal Standard

Summary judgment is appropriate when “the parties’ submissions show that there is no
genuine issue as to any material fact and the moving party is entitled to judgment as a matter of

6 On October 3, 2019, the case was reassigned to Magistrate Judge Sarah L. Cave.

6

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 7 of 19

law.” Fay v. Oxford Health Plan, 287 F.3d 96, 103 (2d Cir. 2002); see Fed. R. Civ. P. 56(a).
“[T]he dispute about a material fact is ‘genuine’... if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., All U.S. 242,
248 (1986). A fact is “material” if it “might affect the outcome of the suit under the governing
law,” and “[factual disputes that are irrelevant or unnecessary will not be counted.” Id.
On a motion for summary judgment, the moving party bears the initial burden of
establishing that no genuine factual dispute exists, and, if satisfied, the burden shifts to the
nonmoving party to “set forth specific facts showing that there is a genuine issue for trial,” id. at
256, and to present such evidence that would allow a jury to find in his favor, see Graham v.
Long Island R.R., 230 F.3d 34, 38 (2d Cir. 2000).
To defeat a summary judgment motion, the nonmoving party “must do more than simply
show that there is some metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 586 (1986). “A party asserting that a fact cannot be or is
genuinely disputed must support the assertion by . .. citing to particular parts of materials in the
record, including depositions, documents, electronically stored information, affidavits or
declarations, stipulations (including those made for purposes of the motion only), admissions,
interrogatory answers, or other materials ....” Fed. R. Civ. P. 56(c)(1). As such, Local Civil
Rule 56.1 requires a party opposing a motion for summary judgment to include in its response a
statement containing “a correspondingly numbered paragraph responding to each numbered
paragraph in the statement of the moving party” followed by citation to admissible evidence.
Local Civil Rule 56.1(b), (d).
In the event that “a party fails ... to properly address another party’s assertion of fact as
required by Rule 56(c), the court may,” among other things, “consider the fact undisputed for

7

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 8 of 19

purposes of the motion” or “grant summary judgment if the motion and supporting materialsincluding the facts considered undisputed—show that the movant is entitled to it.” Fed. R. Civ.
P. 56(e)(2), (3); Local Civil Rule 56.1(c). When a party fails to file a counter statement under
Local Civil Rule 56.1,1 have discretion to accept the uncontroverted assertions of the party
moving for summary judgment as true, but I “may [also] in [my] discretion opt to ‘conduct an
assiduous review of the record’ even where one of the parties has failed to file such a statement.”
Holtz v. Rockefeller & Co., 258 F.3d 62, 73 (2d Cir. 2001) (quoting Monahan v. N.Y.C. Dep’t of
Corr., 214 F.3d 275, 292 (2d Cir. 2000)).
IV.

Discussion

Defendants’ first argument in support of summary judgment—that Plaintiff has failed to
properly allege an age discrimination claim in the complaint—is without merit. While
acknowledging that in my decision on Defendants’ motion to dismiss I found that Plaintiff
c“br[ought], as part of her first cause of action, a claim for age discrimination in violation of the
Equal Protection Clause pursuant to § 1983,’” Defendants state they “respectfully disagree.”
(Defs.’ Mem. 5-6). It appears that Defendants are asking me to reconsider my prior ruling. The
time for filing a motion for reconsideration has long since passed. In any event, as noted in my
decision, Plaintiff has sufficiently alleged an age discrimination claim under §1983, (Doc. 34, at
20), and Defendants have not made a compelling argument for and I see no reason to revisit that
decision. Therefore, I need not address further Defendants’ arguments to dismiss the action for
failure to state a claim for age discrimination.
Defendant next argues that in the absence of an ADEA claim, Plaintiffs age
discrimination claim under § 1983 fails. As I stated in my decision on Defendants’ motion to
dismiss, (Doc. 34, at 20), and as Defendants acknowledge, (Defs.’ Mem. 7), it is an open

8

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 9 of 19

question in this Circuit whether age discrimination is an appropriate basis for a § 1983 cause of
action, especially in the absence of an ADEA cause of action, see, e.g., Piccorte v. Town of
Webster, 511 F. App’x 63, 63 n.l (2d Cir. 2013) (summary order) (“It is an open question in our
circuit whether the ADEA preempts age discrimination claims under Section 1983.”); Shein v.
New York City Dep’t ofEduc., No. 15CV4236 (DLC), 2016 WL 676458, at *6 n.3 (collecting
cases). However, I need not attempt to resolve this legal issue because, as I explain below,
Plaintiff has failed to make out a prima facie case of age or religious discrimination on her §
1983 claims. For the same reason, I also need not address Defendants’ qualified immunity
defense.
The basic facts of the case are not disputed by the parties. What is disputed is whether
the facts support Plaintiffs claims for age and religious discrimination. I find that they do not.
A. Applicable Law
In order to establish a § 1983 claim for age or religious discrimination, a plaintiff must
demonstrate that (1) the defendant acted unlawfully under color of state law; and (2) the plaintiff
suffered a denial of her federal constitutional or statutory rights as a result of defendant’s
unlawful action. Annis v. Cty. of Westchester, 136 F.3d 239, 245 (2d Cir. 1998). In order to
survive a motion for summary judgment on a discrimination claim brought pursuant to § 1983, a
plaintiff must satisfy the three-part burden-shifting analysis articulated by the Supreme Court in
McDonnell Douglas v. Green, 411 U.S. 792 (1973). As delineated by the Second Circuit in
Mario v. P & C Food Markets, Inc., 313 F.3d 758, 767 (2002), that three-part burden shifting
analysis requires that:
[A] plaintiff must first establish a prima facie case of discrimination by showing
that (1) he is a member of a protected class; (2) he is competent to perform the job
or is performing his duties satisfactorily; (3) he suffered an adverse employment
decision or action; and (4) the decision or action occurred under circumstances

9

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 10 of 19

giving rise to an inference of discrimination based on his membership in the
protected class. If the plaintiff succeeds, a presumption of discrimination arises
and the burden shifts to the defendant to proffer some legitimate, nondiscriminatory
reason for the adverse decision or action. If the defendant proffers such a reason,
the presumption of discrimination created by the prima facie case drops out of the
analysis, and the defendant will be entitled to summary judgment unless the
plaintiff can point to evidence that reasonably supports a finding of prohibited
discrimination. The plaintiff must be afforded the opportunity to prove by a
preponderance of the evidence that the legitimate reasons offered by the defendant
were not its true reasons but were a pretext for discrimination.
Id (citations, quotations marks, and alterations omitted).
B. Application
1. Member of a Protected Class
The record establishes that Plaintiff is a member of a protected class, as the parties
stipulate that she is a 69-year-old Jewish female, satisfying the first prong of the analysis for both
age and religious discrimination. (Defs.’ Fact Statement H 1).
2. Qualified to Perform the Job
The record also establishes that Plaintiff was qualified for the job she was performing. In
Slattery v. Swiss Reinsurance America Corp., the court explained that to satisfy the second prong
of the McDonnell analysis “all that is required is that the plaintiff establish basic eligibility for
the position at issue, and not the greater showing that he satisfies the employer.” 248 F.3d 87, 92
(2d Cir. 2001). In Slattery, the Second Circuit found that the District Court erred in determining
that because Defendant was dissatisfied with Plaintiffs performance that Plaintiff had not
established the second element of a prima facie claim. Id. Instead, the court affirmed the
holding in Owens v. New York City Housing Authority, in which the court held that all plaintiff
must show is that she “possesses the basic skills necessary for performance of [the] job.” 934
F.2d 405, 406 (2d Cir. 1991).7 As in Slattery, although Defendants did put in evidence of

7 In light of the holdings in Owens and Slattery, I do not adopt the contrary opinion articulated in Thornley v.

10

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 11 of 19

dissatisfaction with Plaintiffs performance, there is no basis for me to conclude that Kunik
lacked the basic skills necessary to perform the job she had been performing for 20 years. 8
3. Adverse Employment Action
Plaintiffs claim, however, fails on the third prong of the McDonnell test as she did not
put in sufficient evidence to create an issue of fact that she was subject to an adverse
employment action. For this third prong, “a plaintiff sustains an adverse employment action if
he or she endures a materially adverse change in the terms and conditions of employment.”
Vega v. Hempstead Union Free Sch. Dist., 801 F.3d 72, 85 (2d Cir. 2015) (quoting Galabya v.
NYC. Bd. ofEduc., 202 F.3d 636, 640 (2d Cir. 2000)). “An adverse employment action is one
which is more disruptive than a mere inconvenience or an alteration of job responsibilities.” Id.
(citation omitted). “Examples of materially adverse changes include termination of employment,
a demotion evidenced by a decrease in wage or salary, a less distinguished title, a material loss of
benefits, significantly diminished material responsibilities, or other indices unique to a particular
situation.” Id. (citation omitted). The Second Circuit has held that “the assignment of‘a
disproportionately heavy workload’ can constitute an adverse employment action.” Id. (quoting
Feingold v. New York, 366 F.3d 138, 152-53 (2d Cir. 2004)).
Plaintiff claims that she experienced an adverse employment action by an increase in her
course load, including an English literature course she claims she was unqualified to teach, the
inability to teach summer school, and the inability to submit “artifacts” to combat her
unsatisfactory rating after their submission date. I will take each of these claims in turn.

Penton-Publ’g, 104 F.3d 26, 29 (2d. Cir. 1997), abrogated by Slattery v. Swiss Reinsurance America Corp., 248
F.3d 87, 92 (2d Cir. 2001).
81 note that Plaintiff was not fired, and although she received unsatisfactory performance reviews, she received
grades of “effective” in many categories and “developing” in others in the lessons observed during the 2013-2014
school year. (Defs.’ Fact Statement ^ 77-88.)

11

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 12 of 19

First, Plaintiffs argument that her increased course load is an adverse employment action
fails because “[scheduling and assignment issues involving course loads are generally not
considered materially adverse employment actions.” Dimitracopoulos v. City ofNew York, 26 F.
Supp. 3d 200, 213 (E.D.N.Y 2014) (citing Aspilaire v. Wyeth Pharms., Inc., 612 F. Supp 2d 289,
304 (S.D.N.Y 2009)); see Smalls v. Allstate Ins. Co., 396 F. Supp. 2d 364, 371 (S.D.N.Y. 2005)
(“receiving unfavorable schedules or work assignments ... do not rise to the level of adverse
employment actions”). However, if the change is “so burdensome as to constitute a departure
from normal academic practice” it may be actionable. Dimitracopoulos, 26 F. Supp. 3d at 213.
Plaintiff fails to cite evidence in the record to establish, or create an issue of fact, that her
workload was so burdensome as to constitute a departure from normal academic practice.
Plaintiffs course load was also not greater than that of her peers. (Doc. 63-2 Ernst Deck Ex. B
at 88:21-89:8, Doc. 68-16 Lewbel Deck Ex. M-2.) Plaintiff taught five classes, as did every
other full-time teacher. (Id.) The fact that Plaintiffs classes included Regents classes is not a
departure from normal academic practice, is consistent with her level of experience, and is not
actionable.
Second, Plaintiffs assignment to teach some English courses in addition to English as a
Second Language is also not an adverse employment action. “In order to constitute an adverse
employment action, it is not enough that defendants[] gave plaintiff a subjectively less preferred
teaching assignment; the assignment must be ‘materially less prestigious, materially less suited
to h[er] skills and expertise, or materially less conducive to career advancement.’” Sotomayor v.
City of New York, 862 F. Supp. 2d 226, 255 (E.D.N.Y. 2012) (quoting Galabya, 202 F.3d at
641). Although it is clear that Plaintiff did not want to teach English, the assignment itself does
not constitute an adverse employment action. Teaching English is not materially less

12

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 13 of 19

prestigious, nor was it materially less suited to Plaintiffs expertise as Plaintiff was licensed to
teach English in the City of New York. (Lewbel Deck Ex. M-l.) Although Plaintiff maintains
that she “was not qualified to teach the English subject because [she] had not completed the
required probation to teach English in the New York City Public Schools,” she has not produced
evidence of that beyond her self-serving deposition testimony, (PL Opp. 17),9 or explained how
this fact made her unqualified to teach English.10 Plaintiff has, however, produced a letter she
wrote to Defendant Houlihan which states that despite her objections she was willing to try
teaching the English class, and apologized for her behavior in objecting to the assignment.
(Ernst Deck Ex. H, “I want to apologize for leaving your office earlier today in such an
emotional way. I am sorry about it.... My husband and I discussed the situation with my
schedule, and because the proof of the pudding is in the eating, we decided that I should try to do
it.”). In this letter Plaintiff does not mention that she believed she was not qualified to teach
English and does not mention probation, instead she states her view that the decision to have her
teach English was “unfair” and suggests that a less qualified/strong teacher than herself should
teach English. Specifically, Plaintiff states in the letter that
This does not change my opinion that your decision was unfair to me. Ms. lzzo and
Ms. Fuentes have never and will never act in the interests of children. Neither are
they people to trust or rely on, as you are still to discover for yourself. I am writing
to you about it because Indians say, “Ask the oldest woman. She is not afraid to
speak the truth.” As a result, this decision dictated to you by these two individuals
was also incorrect strategically because ESL students need a stronger teacher than
students from the mainstream who, at least, have the ability to express themselves,
whereas it presents the greatest problem for ESL students. Thus, for many of those
ESL students I am a real chance to jump over the block that ELA Regents is to

9 “PI. Opp.” refers to the Memorandum of Law of Plaintiff Rimma Kunik in Opposition to the Motion for Summary
Judgment of Defendants New York City Department of Education, Principal Kaye Houlihan and Assistant Principal
Dorish Munoz Fuentes. (Doc. 69).
10 Moreover, Plaintiff does not explain what the requirement of probation to teach English in the New York City
Public Schools actually means or how her failure to have completed probation meant that she was not qualified.

13

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 14 of 19

them. (Id. (emphasis added).)
In the face of contemporaneous evidence in Plaintiffs own words, her self-serving comments
from her deposition after the filing of this lawsuit cannot create an issue of fact concerning
whether or not she was subjected to an adverse employment action. See Jeffreys v. City ofNew
York, 426 F.3d 549, 555 (2d. Cir. 2005) (finding that “the District Court did not err in granting
defendants’ motion for summary judgment on the basis that Jeffrey s’s [deposition] testimony—
which was largely unsubstantiated by any other direct evidence—was ‘so replete with
inconsistencies and improbabilities’ that no reasonable juror would undertake the suspension of
disbelief necessary to credit the allegations made in his complaint”); Khudan v. Lee, No. 12-cv8147 (RJS), 2016 WL 4735364, at *5 (S.D.N.Y. Sept. 8, 2016) (finding that “Plaintiffs ‘selfserving’ and ‘incomplete’ testimony ... is insufficient to create a genuine dispute of fact”); see
also Johnson v. MetLife Bank, N.A., 883 F. Supp. 2d 542, 550-51 (3d Cir. 2012) (acknowledging
the precedent that conclusory, self-serving deposition testimony is insufficient to withstand a
motion for summary judgment, but noting that the court must assess whether the testimony,
when juxtaposed with the other evidence, is sufficient for a rational factfinder to credit the
deposition testimony, despite its self-serving nature); but see Hill v. Tangherlini, 724 F.3d 965,
967 (7th Cir. 2013) (finding that “[deposition testimony, affidavits, responses to interrogatories,
and other written statements by their nature are self-serving” and that the self-serving nature
“must not be used to denigrate perfectly admissible evidence through which a party tries to
present its side of the story at summary judgment.”). Plaintiff also maintains that she was the
only ESL teacher asked to teach English, yet she has no knowledge concerning whether any
other ESL teacher had a license to teach English in New York City.
Third, Plaintiff argues that receiving unsatisfactory ratings precluded her from teaching

14

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 15 of 19

summer school and per session programs, and that she was not invited to a teaching workshop.
These arguments are specious. Plaintiff admits that over her twenty-year career she only taught
summer school at most three times before the summer of 2013. (Lewbel Decl. Ex. B at 52-53).
According to DOE’s pay roll records Plaintiff had only taught summer school once since 2001.
(Ernst Decl. Ex. GG f 7). Moreover, Plaintiff was not even eligible to teach summer school by
the time she received her unsatisfactory rating since the deadline to apply to teach summer
school was two months before she received her unsatisfactory rating. (Ernst Decl. Ex. GG ^ 12).
In any event, Plaintiff’s failure to apply for summer school belies her contention that she was
precluded from doing so due to her unsatisfactory rating.
Regarding the workshop, Kunik admits that she did not apply or request to attend the
workshop, that she was not aware of its existence until after it was complete, and that she did not
lose salary or benefits from not attending. (Defs.’ Fact Statement

120-122). Plaintiff also

does not deny that one of the attendees of the workshop was between the ages of 55-60, which
contradicts her claim for age discrimination. (Id.

124). This does not constitute “a material

loss of benefits.” Vega, 801 F.3d at 85.
Finally, Kunik argues that she suffered an adverse employment action when Houlihan
only gave her a short extension to submit “artifacts” objecting to her unsatisfactory rating while
Kunik was observing the Jewish High Holidays and the Sabbath. This argument falls short as
well. First, the artifacts were supposed to be submitted in April, and Kunik admits that she had
them ready to submit, and even went to Ms. Houlihan’s office to submit them in April, only to
find the Principal’s office empty and the Assistant Principal’s office locked. Defs.’ Fact
Statement

127-129). Second, although Kunik was notified of her extension by email on days

during which she could not check her email for religious reasons, on September 29, 2014, after

15

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 16 of 19

the High Holidays and sabbath concluded, Houlihan agreed to accept the artifacts on October 1,
2014. (Id. at

133-137). This gave Kunik additional time to submit the same artifacts that she

was prepared to submit in April. This does not constitute an adverse employment action.
4. Inference of Discrimination
Even if Plaintiff had suffered an adverse employment action, she failed to demonstrate
that Defendants harbored any bias, or that their actions were in any way related to such bias so as
to establish an issue of fact. For the fourth element, an inference of discriminatory intent “can
arise from circumstances including, but not limited to, ‘the employer’s criticism of the plaintiffs
performance in ethnically degrading terms; or its invidious comments about others in the
employee’s protected group; or the more favorable treatment of employees not in the protected
group; or the sequence of events leading to the plaintiffs discharge.’” Littlejohn v. City ofNew
York, 795 F.3d 297,312 (2d Cir. 2015) (quoting Leibowitz v. Cornell Univ., 584 F.3d 487, 502
(2d Cir. 2009)).
In assessing the probative value of discriminatory remarks in a § 1983 analysis, the
Second Circuit explains that “[t]he more a remark evinces a discriminatory state of mind, and the
closer the remark’s relation to the allegedly discriminatory behavior, the more probative that
remark will be.” Tomassiv. Insignia Fin. Grp., Inc., 478 F.3d 111, 115-16 (2d Cir. 2007). In
addition “[t]he relevance of discrimination-related remarks does not depend on their
offensiveness, but rather on their tendency to show that the decision-maker was motivated by
assumptions or attitudes relating to the protected class.” Id.
Here, Plaintiff fails to identify any evidence of remarks made in ethnically degrading
terms, negative comments about others in her protected classes, or any evidence to show
discriminatory intent or disparate treatment based on her age or religion. Plaintiffs amended

16

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 17 of 19

complaint alleges that she was spoken to in antisemitic tones and that Defendants’ demeanor
showed discrimination. These allegations, however, are conclusory, and not borne out by the
statements or behaviors identified by Kunik.
In fact, Plaintiff concedes that no one, including Houlihan and Fuentes, ever made any
comments about her age or religion. (Defs.’ Fact Statement ^ 89). Plaintiffs only support for
her claim is her own perception of the manner in which Defendants spoke to her. In her
deposition Plaintiff explains that Houlihan “displayed a very hateful attitude towards [Plaintiff]
with her eyes” and that “anti-Semitism lives in people and finds a way out.” (PI.’s Fact
Statement

90-91). Furthermore, Plaintiff concluded that Fuentes was antisemitic because

“there was no reason for her to treat me the way she was treating me,” and because Fuentes
allegedly lied about her, and “historically anti-Semitism strives on lies.” (Defs.’ Fact Statement
92-93). Nothing about Houlihan’s or Fuentes’s remarks were discriminatory, nor did they
evince a discriminatory attitude towards a certain class. See Hong Lui v. Queens Library Found.,
Inc., Civil Action No. 14-7311, 2017 WL 4217121, at *9 (E.D.N.Y. Sept. 20, 2017) (finding that
Plaintiffs “subjective interpretation” of Defendant’s comment is insufficient “to support that this
comment was directed at her race/national origin” (citing Haynes v. Capital One Bank, No. 14—
CV-6551 (CBA), 2015 WL 2213726, *2 (E.D.N.Y. May 8, 2015) (ambiguous remark
insufficient to support inference of discrimination)).; see also O’Neill-Marino v. Omni Hotels
Mgmt. Corp., No. 99 Civ. 3793, 2001 WL 210360, at *7 (S.D.N.Y. Mar. 2, 2001) (holding that
plaintiffs “attempts to cast a sinister light” on Defendants’ comments by “pullfing] out several
soundbytes to suit her purposes, when those statements are viewed in context, one cannot
reasonably conclude” that defendant was attempting to discriminate was insufficient for a
discrimination claim).

17

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 18 of 19

Plaintiff also fails to put forward evidence to establish an inference of discriminatory
intent by showing disparate treatment. To establish an inference if discriminatory intent through
disparate treatment, a plaintiff must allege that “she was similarly situated in all material respects
to the individuals with whom she seeks to compare herself.” Brown v. Daikin Am. Inc., 756 F.3d
219, 230 (2d Cir. 2014) (quoting Graham, 230 F.3d at 39). “An employee is similarly situated to
co-employees if they were (1) subject to the same performance evaluation and discipline
standards and (2) engaged in comparable conduct.” Abdul-Hakeem v. Parkinson, 523 F. App’x
19, 21 (2d. Cir 2013) (summary order) (quoting Ruiz v. Cnty. ofRockland, 609 F.3d 486, 493-94
(2d Cir. 2010)). In Abdul-Hakeem, the Second Circuit affirmed the District Court’s
determination “that although plaintiff had ‘identified seven alleged comparators,’” she provided
“no factual support that a single alleged comparator performed similar job functions, was
subjected to the same disciplinary standards, engaged in similar conduct, or was treated more
favorably [than her][sic].” Id. (quoting Abdul-Hakeem v. Parkinson, No. 3:10cv747 (JBA),
2012 WL 234003, at *5 (D. Conn. Jan. 25, 2012)).
Plaintiff has not provided sufficient evidence to show that the comparators were similarly
situated in all material respects, subject to the same evaluation and disciplinary standards, and
engaged in comparable conduct. Instead, Plaintiff merely asserts that comparators did not have
the same class load as she did, were not the same age as she was, and received different
evaluation grades. For example, Plaintiff writes that “Argyri Apostolou’s teaching schedule .. .
did not include teaching four periods of Transitional ESL classes and one period Regents
preparation class,” (Pl.’s Fact Statement 35), or “Maria Jimenez’s teaching schedule ... did
not include teaching any English (hereinafter “ELA”) classes,” (Id.

38).

This information, gathered from Defendants’ responses to Plaintiffs requests to admit,

18

Case l:15-cv-09512-VSB-SLC Document 73 Filed 01/31/20 Page 19 of 19

does not give a full picture of each comparator’s qualifications, or workload, and are insufficient
to show that the comparators were similarly situated in all material respects. First, the evidence
provided does not demonstrate the comparators’ qualifications, including whether they were
licensed to teach English. Second, it does not provide the complete schedules and workloads for
the comparators. Without knowing each comparator’s qualifications to teach the courses, or the
teaching schedules for the semesters at issue, I cannot conclude that the comparators were
similarly situated to Plaintiff. In addition, Plaintiff has failed to show that even if the
comparators were similarly situated, that they engaged in comparable conduct, but were treated
in a disparate way. As such, Plaintiff has failed to show an inference of discriminatory intent by
Defendants’ by use of comparators.
V.

Conclusion

For the reasons stated above, it is hereby ordered that Defendants’ motion for summary
judgment is GRANTED. The Clerk of Court is respectfully directed to terminate the pending
motion (Doc. 62), and close this case.
SO ORDERED.
Dated: January 29, 2020
New York, New York

Vernon S. Broderick
United States District Judge

19

Additional material
from this filing is
available in the
Clerk's Office.

